<html>
<title> - SENATE PROCEDURES FOR CONSIDERATION OF THE BUDGET RESOLUTION RECONCILIATION</title>
<body><pre>[Senate Hearing 111-106]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-106
 
     SENATE PROCEDURES FOR CONSIDERATION OF THE BUDGET RESOLUTION
                             RECONCILIATION
=======================================================================


                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________


 February 12, 2009--SENATE PROCEDURES FOR CONSIDERATION OF THE BUDGET 
                       RESOLUTION/RECONCILIATION

                                     
                                     




           Printed for the use of the Committee on the Budget


                  U.S. GOVERNMENT PRINTING OFFICE
50-923                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                        COMMITTEE ON THE BUDGET

                  KENT CONRAD, NORTH DAKOTA, CHAIRMAN

PATTY MURRAY, WASHINGTON             JUDD GREGG, NEW HAMPSHIRE
RON WYDEN, OREGON                    CHARLES E. GRASSLEY, IOWA
RUSSELL D. FEINGOLD, WISCONSIN       MICHAEL ENZI, WYOMING
ROBERT C. BYRD, WEST VIRGINIA        JEFF SESSIONS, ALABAMA
BILL NELSON, FLORIDA                 JIM BUNNING, KENTUCKY
DEBBIE STABENOW, MICHIGAN            MIKE CRAPO, IDAHO
ROBERT MENENDEZ, NEW JERSEY          JOHN ENSIGN, NEVEDA
BENJAMIN L. CARDIN, MARYLAND         JOHN CORNYN, TEXAS
BERNARD SANDERS, VERMONT             LINDSEY O. GRAHAM, SOUTH CAROLINA
SHELDON WHITEHOUSE, RHODE ISLAND     LAMAR ALEXANDER, TENNESSEE
MARK WARNER, VIRGINIA
JEFF MERKLEY, OREGON


                Mary Ann Naylor, Majority Staff Director

              Cheryl Janas Reidy, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                                HEARINGS

                                                                   Page
February 12, 2009--Senate Procedures for Consideration of the 
  Budget Resolution/Reconciliation...............................     1

                    STATEMENTS BY COMMITTEE MEMBERS

Chairman Conrad..................................................     1
Ranking Member Gregg.............................................     6
Senator Byrd..................................................... 7, 11

                               WITNESSES

Robert Dove, Former Parliamentarian, United States Senate........33, 35
Bill Heniff, Jr., Analyst, Congressional Research Service........39, 42
G. William Hoagland, Former Staff Director, Senate Budget 
  Committee......................................................24, 28
Hon. Arlen Specter, A United States Senator from the State of 
  Pennslyvania...................................................16, 18


     SENATE PROCEDURES FOR CONSIDERATION OF THE BUDGET RESOLUTION/
                             RECONCILIATION

                      THURSDAY, FEBRUARY 12, 2009

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Kent Conrad, 
Chairman of the Committee, presiding.
    Present: Senators Conrad, Cardin, Whitehouse, Gregg, 
Sessions, and Alexander.
    Staff present: Mary Ann Naylor, Majority Staff Director; 
and Denzel McGuire, Minority Staff Director.

              OPENING STATEMENT OF CHAIRMAN CONRAD

    Chairman Conrad. The hearing will come to order.
    I want to welcome everyone to the Budget Committee this 
morning. I especially want to welcome our most senior member, 
Senator Byrd, who is also a valued member of this Committee.
    Today's hearing will focus on Senate procedures for 
consideration of the budget resolution and reconciliation. I 
would like to address the practice known here as ``vote-a-
rama,'' and before I go further, I want to make very clear that 
I have no interest in restricting the rights of the minority. I 
have been in the minority. I have been in the majority. I am 
acutely aware that we might be in the minority again. And so I 
am absolutely devoted to continuing the full rights of the 
minority. That is not the issue before this hearing.
    The fundamental issue before us is: Can we improve the 
process? Can we make it better? I think many of us felt acutely 
after last year that there had to be a better way. I think 
those of us who have been most deeply involved have felt this 
for many years. But last year, because the Presidential 
candidates were coming and going and it forced the votes into a 
very short period of time, at least the key votes, it became, I 
think, even more apparent than it has been, certainly to the 
general membership of the Senate, that this system really needs 
a review and a reworking.
    I am delighted to have Senator Byrd as a witness today. 
Senator Byrd is a giant in the Senate. He is the Senate's Pro 
Tempore, former Majority Leader, and a valued member of this 
Committee. And he is a leading expert on Senate rules and 
procedures and played a critical role in the creation of the 
Congressional Budget Act under which we operate.
    Senator Specter will also be here. Senator Specter is the 
Ranking Member and a former Chairman of the Senate Judiciary 
Committee. He is also an expert on Senate rules and procedures. 
He has introduced legislation, Senate Resolution 29, that 
builds on the ideas put forward by Senator Byrd on reforming 
the vote-a-rama process. So I very much look forward to both of 
their testimony.
    Let me begin by making clear why we have vote-a-rama. Under 
the Congressional Budget Act, the budget resolution and 
reconciliation bills are given special fast-track treatment 
that limits debate: 50 hours for a budget resolution, 20 hours 
for a reconciliation bill. This means that these measures 
cannot be filibustered. As a way to protect the rights of the 
minority, the Budget Act allows an unlimited number of 
amendments to be filed even after all time has expired on the 
resolution or the bill. So as frustrating as vote-a-rama may be 
for all of us, the ability to offer unlimited amendments is 
meant to safeguard minority rights.
    Again, I want to make clear I have no interest in 
truncating minority rights, but there are real problems with 
vote-a-rama, and I think they became even more clear last year.
[GRAPHIC] [TIFF OMITTED] 50923.056

    No. 1, it results in many back-to-back votes, sometimes 
continuing for days, with little time for review and debate. 
And some of these amendments have far-reaching consequences. As 
a result, Senators often are not fully certain of the 
implications of the amendments they are voting on. When you 
have a debate that lasts 2 minutes, 1 minute a side, and nobody 
has seen the amendment until 15 minutes before it is voted on, 
we have got a problem.
    The number of amendments offered to budget resolutions has 
generally been rising. According to the Congressional Research 
Service, the last 3 years are among the top 5 years with the 
most amendments offered. You can see that in 2008 we saw the 
most amendments ever--113.

[GRAPHIC] [TIFF OMITTED] 50923.057


    The number of roll call votes on budget resolutions has 
also generally been rising, and, disturbingly, the percentage 
of votes taken on amendments offered after all time has expired 
has been rising. This means that Senators are increasingly 
taking votes on amendments that were given no real time for 
debate. In 2008, we had 40 votes, 60 percent of which were on 
amendments that were given no time for debate.

[GRAPHIC] [TIFF OMITTED] 50923.058


    Here are some potential ways to reform the vote-a-rama 
process:
    We could create filing deadlines for first and second 
degree amendments. This would prevent amendments from being 
filed after all time has expired and hopefully allow more time 
for debate.

[GRAPHIC] [TIFF OMITTED] 50923.059


    We could increase the number of amendments debated prior to 
vote-a-rama by reducing the time allotted to each amendment. 
Again, this would hopefully encourage more substantive debate 
on amendments.
    Third, we could require a brief layover period to review 
amendments.
    And, fourth, we could allow the yielding back of time only 
by unanimous consent. This would help protect Senators' rights 
to continue debate on amendments in light of the other changes 
we might make that would limit amendments being offered.
    Now, I have not formed any hard and fast opinion on any of 
these. I am completely open to what we might agree to jointly 
as a way of reforming the process. I know we have got strong 
majorities here on the Committee and on the floor and that we 
could ram through rule changes perhaps. I have no intention of 
doing that. I want to make that very clear. That is not what 
this exercise is about. I am interested, though, in working 
together to see if we can improve the process.
    With that, I will turn to Senator Gregg, who we are 
delighted is back in the Committee. While we in some ways wish 
him well in the confirmation process, if I am honest about it, 
I would not be heartbroken if somehow the confirmation process 
broke down and he were required to stay with us. But, in any 
event, we are delighted you are here.

               OPENING STATEMENT OF SENATOR GREGG

    Senator Gregg. Thank you, Mr. Chairman. Thank you for those 
generous words, and now I know who has the hold on me.
    [Laughter.]
    Chairman Conrad. Multiple holds.
    Senator Gregg. First off, it is always a pleasure to have 
the Senator Pro Tempore here today, or any day. He is the 
oracle of the Senate on the issue of rules, procedure, and 
proper decorum, and all of us have read much of his writings 
and enjoyed listening to his presentations on the floor, and we 
will today.
    The issue of vote-a-rama is difficult, and there is no 
clear answer to it. The vote-a-rama is the Senate's equivalent 
to Chinese water torture, especially for those of us who manage 
the bill on the floor. But, on the other hand, it is the 
opportunity for the minority to make its points. We have seen 
in recent years where the minority has lost its capacity to 
make its points in the traditional way on the Senate floor, 
with a number of cloture petitions and tree-filling events. And 
so the budget rules, as they are presently structured, really 
is the last absolute bastion of the right of the minority to 
bring forward its opinions and have a vote on them without 
being able to be shut off.
    Granted, the debate on the amendments is extremely 
truncated, as the Chairman said, and it is a minute on each 
side. But the right at least still exists.
    Now, I want to express my great appreciation to Senator 
Reid in the way he has run the Senate so far in this session. 
It has been open. It is the way it used to be. It is the way it 
should be. And it has been enjoyable. It has been just plain 
enjoyable to have the Senate function as a house of debate and 
a place where people get their points across on the floor and 
get to vote on them. And I hope we can maintain that approach, 
and I admire his leadership this year on that issue.
    But I do not know that the minority is going to be 
willing--and I think the Chairman has not even implied that 
this would be his purpose, but the minority is not going to be 
willing to neutralize or significantly adjust its rights here 
if it would affect the ability to make our points. And so we 
have to come up with a procedure which addresses the rights of 
the minority and at the same time gets into a more orderly 
process at the end of the day when we get to the final hour on 
the budget. That is what we are looking for. And if there was a 
quick answer, we would have it. But we do not.
    Some of the ideas that the Chairman has suggested in his 
four points here are, I think, worth discussing and seeing--you 
know, playing them back and forth and seeing if we can work 
them out. But at the end of the day, the bottom line for us is 
going to be that people in the minority--and we hope we will 
not be in the minority forever, and we will give the 
opportunity back to the Senator from North Dakota at some 
point. The people in the minority will have the ability in the 
budget process to amend without any limitation that is 
unreasonable, and that the rights of the minority would not, 
therefore, be curtailed.
    But that does not mean we cannot in some way fix the vote-
a-rama. I do believe there must be something better, and so let 
us take a look and see if we can find it.
    Thank you, Mr. Chairman.
    Chairman Conrad. I thank very much the Ranking Member for 
his statement and the spirit that he brings to the exercise. 
Look, I have been in the minority. I have been in the majority. 
As I said, I am acutely aware that I might be in the minority 
again. So I am not going to be at all interested in something 
that truncates or reduces the rights of the minority.
    Senator Gregg. And the Chairman's fairness is renowned 
throughout the Senate. You have always been extraordinarily 
fair and forthright with the minority, and we very much 
appreciate it. And we understand that that is your position as 
we move forward on this issue.
    Chairman Conrad. You know, one of the questions that has 
run through my mind is: If you are confirmed as Secretary, will 
you be hiring at all? Because maybe a number of us would like 
to join you up there.
    Seriously, together hopefully we can have a chance here to 
explore how we can improve the process. We could not do better 
than to have Senator Byrd, a member of this Committee and 
somebody who has forgotten more about the rules than most of us 
know. Welcome, Senator Byrd. Good to have you here, sir. Please 
proceed with your testimony.

STATEMENT OF HON. ROBERT C. BYRD, A UNITED STATES SENATOR FROM 
                   THE STATE OF WEST VIRGINIA

    Senator Byrd. Well, Mr. Chairman and Senator Gregg, I thank 
you for this opportunity to testify on Senate procedures for 
considering budget resolutions and reconciliation bills. I 
commend the Committee and I commend Senator Specter for 
focusing attention on this important matter.
    I am a proud author of the Congressional Budget and 
Impoundment Control Act of 1974. I am one of the proud authors. 
At the time, I served as Chairman of the Senate Committee on 
Standing Rules of the Senate. With a staff from 10 Senate 
Committees, I conducted 90 hours of meetings-90 hours of 
meetings during 25 sessions over a 16-day period. I met with 
the Senate Parliamentarian, the Congressional Research Service, 
and the Senate Legal Counsel. As Majority Whip, I managed the 
Senate floor deliberations on the Budget Act. When the Senate 
completed its several weeks of debate and amendments, I served 
on the conference committee that finalized the Budget Act. And 
I can say with confidence that the process that the Senate 
utilizes today hardly resembles the process envisioned in 1974.
    The budget reconciliation process, for example, was once 
thought to allow for last-minute adjustments between two or 
more budget resolutions in a fiscal year--something that has 
never happened in the 35 years since the enactment of the 
Budget Act.
    Today the reconciliation process serves as a reminder of 
how well-intentioned changes to the Senate rules can threaten 
the institution in unforeseen ways. Reconciliation can be used 
by a determined majority to circumvent the regular rules of the 
Senate in order to advance partisan legislation.
    We have seen one party and then we have seen the other 
party use this process to limit debate and amendments on non-
budgetary provisions that otherwise may not have passed under 
the regular rules. The reconciliation process was designed to 
facilitate legislation to reduce deficits. Instead, the process 
has been used to enact multi-trillion-dollar tax cuts that have 
led to record deficits over the last 8 years.
    Of the few checks on this fast-track process, I am proud to 
say that one of the most effective bears my name under the Byrd 
Rule, prohibiting extraneous matter on reconciliation bills. I 
am also pleased that the Committee created at my request a 
point of order in the fiscal year 2008 budget resolution 
prohibiting reconciliation bills that worsened the deficit. I 
hope that this prohibition will be codified in the Budget Act 
as the Byrd Rule was codified. But these checks alone, I am 
sorry to say, are not sufficient to prevent abuse. It is long 
past time, I say, that the Senate take a look at the 
reconciliation process and even consider doing away with it--
doing away with it--if it is found that the rights of the 
minority cannot be better protected.
    While we are at it, let us get rid of the perennial and 
painfully ridiculous budget vote-a-ramas. I once described 
vote-a-ramas as ``pandemonium,'' which was the Palace of Satan 
in Milton's ``Paradise Lost.'' But that term fails to describe 
the ignominy of the Senate when it becomes engulfed in these 
budget vote carnivals.
    To the credit of Senators Gregg and Conrad, vote-a-ramas 
have been limited in recent years, but they do continue to 
occur nonetheless.
    In 2007--I hesitate. I want to welcome one of the best 
Senators, one of the finest Senators that this chamber has ever 
witnessed who knows more about constitutional law than many of 
us ever read. He is a Senator's Senator.
    Now, where was I?
    Senator Specter. Go on with the theme you are developing, 
Senator Byrd. I like it.
    [Laughter.]
    Senator Byrd. You like that? All right.
    Well, in 2007, during the debate on the College Cost 
Reduction and Access Act, the so-called education 
reconciliation bill--I do not know why we use that term, ``the 
so-called education reconciliation bill''--a Senator offered an 
unrelated amendment on the Federal Communications Commission, 
which then prompted the other side to offer a sense of the 
Senate resolution on detainees at Guantanamo Bay, which then 
prompted an amendment urging President Bush not to pardon 
``Scooter'' Libby, which then prompted a retaliatory amendment 
on pardons granted by President Clinton.
    Amendment after amendment after amendment was offered, each 
completely unrelated--I say each completely unrelated--Mr. 
Whitehouse--each completely unrelated to the education 
reconciliation bill, and subject to multiple violations under 
the Budget Act. Yet each side continued--continued to raise the 
stakes--that is S-T-A-K-E-S. I have got to have a little fun as 
we go along.
    [Laughter.]
    Senator Byrd. Taking shots, political shots, political 
potshots--you have to be careful how you say that now. 
Political potshots at the opposing side while the Senate 
drifted far--remember the old song, ``Drifting Too Far from the 
Shore.''
    [Singing.]
    Senator Byrd. While the Senate drifted too far from its 
constitutional responsibility to legislate for the American 
people.
    We do have to have a little levity as we go along. Isn't 
that right?
    It underscores the dangers of the reconciliation process--
and would you say ``ree-conciliation'' or ``reck-onciliation''? 
Reconciliation--where bills and amendments are considered under 
the expedited procedures where vote-a-ramas occur and chaos 
ensues and where Senators are called upon to cast votes on 
nearly anonymous and potentially dangerous amendments without 
adequate time for debate and understanding.
    No wonder the American people are losing faith in their 
governmental institutions. We engage in these vote-a-ramas once 
and sometimes twice and sometimes more each year and make 
spectacles of ourselves in order to create fodder for press 
releases and for campaign ads. Even the name ``vote-a-rama'' is 
ridiculous.
    I call upon the Republican and Democratic leadership as 
well as the members of the Budget Committee and all Senators to 
strengthen the congressional budget process. I believe today, 
as I believed in 1974, that the Congress should produce an 
annual budget that reflects its views just as the President is 
required to submit a budget that reflects his views. But 
reconciliation is different. Unlike the budget, a 
reconciliation bill can become the law of the land. And it is 
not a necessary exercise. The Budget Act does not require 
reconciliation, nor does the Budget Act require or even mention 
the use of vote-a-ramas. This is self-inflicted abuse, and our 
Nation can suffer and does suffer as a result.
    What a magnanimous gesture it would be from the newly 
expanded majority in furthering a new tone and a new era of 
bipartisanship if we were to begin bipartisan discussions in 
earnest on improving and civilizing what has traditionally been 
a partisan process. As part of those discussions, I encourage 
the Committee to consider the unprecedented deficits that we--
that is you and me, that is us--that we are accumulating and 
try to find consensus, as we did in 1990--Senator Gregg, you 
may remember--at Andrews Air Force Base. Do you remember that 
magnanimous spectacle over there? I should say ``magnificent 
spectacle''--on renewing the strong budget enforcement 
mechanisms that have served our Nation in the past.
    Now, for the benefit of the record, I ask that my amendment 
on vote-a-rama from 2001 and a statement from the Congressional 
Record on the Function 920 account be included in the Committee 
record.
    Chairman Conrad. Without objection.
    Senator Byrd. I thank the Chairman and the Ranking Member.
    This vote-a-rama amendment, which Senator Specter has 
embraced in his proposal, could serve as a starting point for 
this Committee as it considers reform.
    [The prepared statement of Senator Byrd follows:]

    [GRAPHIC] [TIFF OMITTED] 50923.001
    

    [GRAPHIC] [TIFF OMITTED] 50923.002
    

    [GRAPHIC] [TIFF OMITTED] 50923.003
    

    [GRAPHIC] [TIFF OMITTED] 50923.004
    

    [GRAPHIC] [TIFF OMITTED] 50923.005
    

    Chairman Conrad. Thank you, Senator Byrd. Thank you very 
much for your wise words, and thanks for your service to the 
country, especially your service to this body and certainly to 
this Committee. And what you have proposed will certainly form 
the basis of the discussions that we will have on how we can 
improve this process.
    With that, we will turn to Senator Specter. Welcome.
    Senator Specter, I want to indicate, last year approached 
me and said, ``We have got to do better than this vote-a-rama 
process,'' and urged me to engage on this issue to hold a 
hearing. I promised him then that we would hold a hearing and 
that we would seriously engage in an attempt to improve the 
process before we repeated it again this year.
    So, Senator Specter, thank you for your leadership, and 
thank you for the energy that you have brought to the need for 
reform. Senator Specter.

 STATEMENT OF HON. ARLEN SPECTER, A UNITED STATES SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman.
    I begin by thanking the Committee for undertaking this 
consideration. I would supplement what the Chairman has said. 
To put a time on our conversation, it was March 14th at 1:50 
a.m., and vote-a-rama had started on March 13th at 11:15 a.m., 
and we had 44 votes, and it was bedlam.
    Before I describe it further briefly, I want to acknowledge 
the honor of sitting at this table with Senator Byrd. Senator 
Byrd, as we all know, was elected to the Senate in 1958, after 
he had been in the House of Representatives, having been 
elected there in 1952. And I attended the ceremony for 
Congressman Dingell a couple of days ago, the longest-serving 
House Member, but nowhere near the tenure of Senator Byrd, who 
has the all-time record. So it is an honor to sit beside him 
today. It has been an honor to sit with him for going on 29 
years for me, which is a limited amount of time compared to 
what Senator Byrd has done.
    Senator Byrd. It has been my treasured honor. My treasured 
honor.
    Senator Specter. Thank you, Senator Byrd.
    The subject matter is, I think, of vital importance to the 
procedures of the Senate because the way it has necessarily 
been conducted with the chamber full, that is the occasion when 
there are more Senators on the floor longer than any other time 
that the Senate functions, because if you step out of the 
chamber, you are likely to miss a vote. And with nearly 100 
Senators on the floor, we do not sit in our seats waiting to be 
recognized, staying out of the well and staying out of 
conversations. There is no order. And it is impossible to hear 
what is happening.
    And when the roll is called, we have to vote, and it is 
inevitable that votes are cast--I am right in the middle of the 
same procedure--where we do not know what we are voting on 
because we have not heard the debate. And there is only 2 
minutes of debate, and if you listen closely, it is pretty hard 
to figure out some of these amendments. And they have not been 
written down; they have not been publicized. Staffs are totally 
overworked with each of us devoting many of our staff members, 
and they cannot get on the floor. So it is hardly a function of 
the world's greatest deliberative body.
    I ask consent that my full statement be made a part of the 
record, and I will summarize it very briefly.
    Chairman Conrad. Without objection.
    Senator Specter. It follows a proposal submitted by Senator 
Byrd back on April 5th of 2001, and the essence of it is, as 
the essence of Senator Byrd's was, to require that first degree 
amendments be filed at the desk prior to the 10th hour of 
debate, second degree amendments prior to the 20th hour of 
debate, set aside the budget resolution one calendar day prior 
to the 40th hour of debate, to allow printing in the record and 
a review, and consent required to have time yielded back.
    I am aware, acutely aware, of the issue of minority rights. 
But there is no doubt that the complex amendments are designed 
as ``gotcha'' amendments to put people on the record. I believe 
that this issue is closely interwoven with another resolution. 
My resolution this year is Senate Resolution 29, and earlier I 
reintroduced Senate Resolution 12, which would limit the 
procedures to fill the tree where we have seen Senators' rights 
to offer amendments very drastically curtailed.
    The two unique qualities about the Senate as a legislative 
body are the right of any Senator at virtually any time to 
introduce virtually any amendment on any subject. Added to that 
unlimited debate, this is a chamber where the American people 
can see big issues debated. And you do not have to debate it 
for 26 hours, as Senator Thurmond did, to establish a record. 
It attracts attention. And people have an opportunity to focus 
on big issues--big issues--and Senators representing their 
constituents have an opportunity to improve the quality of 
public policy in America. And that change there would protect 
minority rights.
    As usual, when there are undesirable practices, the 
partisan blame is pretty nearly evenly divided between the two 
parties, and leaders of both parties have undertaken this 
process. And I am glad to see this year that we had debate on 
SCHIP and we had debate on the stimulus package, and I hope we 
have put that behind us, so that Senators have an opportunity 
to offer amendments on pending legislation. And I think we need 
to refine what we mean by ``germane.'' Perhaps we ought to 
adopt a term which is ``relevancy'' as opposed to what is 
``germane.'' Very hard to figure out what is germane. Not easy 
to figure out what is relevant, but we have a lot of law on the 
subject of what is relevant, a big body of case law.
    So I hope we will make some changes, starting in this very 
distinguished body, and I think we have to move fast because we 
do not want to lose the wisdom of the Ranking Member, Senator 
Gregg, on this. And he may not be with us too long. So I would 
want to utilize his full talents, and if that sets a narrow 
parameter, it would not do this body any harm to move with some 
deliberate consideration, but no undue delay.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Specter follows:]

    [GRAPHIC] [TIFF OMITTED] 50923.006
    

    [GRAPHIC] [TIFF OMITTED] 50923.007
    

    [GRAPHIC] [TIFF OMITTED] 50923.008
    

    [GRAPHIC] [TIFF OMITTED] 50923.009
    

    [GRAPHIC] [TIFF OMITTED] 50923.010
    

    [GRAPHIC] [TIFF OMITTED] 50923.011
    

    Chairman Conrad. Thank you, Senator Specter, and thank you 
again for your interest and for taking the time. I know the 
Committee on which you are Ranking Member is meeting at this 
same time, and we understand that it took a special effort for 
you to be here with us today. I very much appreciate it.
    I really do think working together there has got to be a 
way for us to reach conclusion on how to improve this process. 
It was not in the best traditions of the Senate to have 
circumstances in which so many votes were taken so rapidly with 
so little debate, so little considerations, and a certain level 
of chaos, as the Senator describes. It seems to me there is a 
way to absolutely protect minority rights, but to do it in a 
way that we can be proud of. And that really is the test that 
we have.
    With that, I want to thank both Senator Byrd and Senator 
Specter for being with us. We deeply appreciate your 
contributions to the Committee, and we will call on you as we 
move through this process. We hope we can do this together. It 
will not work unless we do. And do we are going to put together 
a proposal that tries to take the best ideas that come from 
this hearing and see if we cannot get all sides to agree.
    Thank you both very much.
    Senator Specter. Thank you.
    Chairman Conrad. Thank you, Senator Byrd.
    Senator Byrd. Thank you.
    Chairman Conrad. Thank you for your service. Thank you, 
Senator Specter.
    I will now turn to our second panel of witnesses. We are 
joined today by Bill Hoagland. Bill is currently serving as 
Vice President for Public Policy and Government Affairs at the 
CIGNA Corporation. He served as the Majority or Minority Staff 
Director on the Budget Committee from 1986 to 2002 and as a 
budget and economic adviser to the then- Senate Majority Leader 
Bill Frist from 2003 to 2007. I think it is fair to say that 
Bill Hoagland is one of the most respected staff persons to 
ever serve the U.S. Senate.
    Second, we have Robert Dove. Bob Dove served as Senate 
Parliamentarian for 36 years. He is now a professor at George 
Washington University's Graduate School of Political 
Management, and Bob Dove brings a wealth of knowledge on 
parliamentary history of the U.S. Senate and on procedure.
    Third, we have Bill Heniff with us. Bill is an analyst with 
the Congressional Research Service and is an expert on the 
Federal budget process and budget process reform.
    I want to welcome all of you here today, and with that, I 
am going to ask Bill to proceed with his testimony. Bill 
Hoagland. We will ask Bill to proceed and, again, welcome back 
to the Budget Committee, Bill. We miss you around here, and we 
are delighted that you are here to share your views on how we 
could improve this process. Bill Hoagland.

STATEMENT OF G. WILLIAM HOAGLAND, FORMER STAFF DIRECTOR, SENATE 
                        BUDGET COMMITTEE

    Mr. Hoagland. Thank you, Mr. Chairman, Senator Gregg and 
members of the Committee. I am humbled to appear before you on 
this side of the dais. I am also a little surprised to be asked 
to come back to the Committee on this particular topic. I 
anticipated that if I was ever asked to appear before the 
Committee, it would have been to atone for budget sins before 
what we staff used to refer to as the ``Budget Committee 
Nuremberg Trials.'' I am pleased to be joined here by Bob Dove, 
one who understands the procedures much better than I could 
ever hope.
    In preparing for what I was to say to the Committee, I 
consulted with two previous staff directors that served in the 
majority--Hazen Marshall under Senator Nickles and Scott Gudes 
under the Ranking Member--both during a time when vote-a-rama 
expanded. There were three themes that emerged from our 
discussions.
    First, we all agree that yes, vote-a-rama created much 
angst, frustration, and exhaustion for both Committee staff as 
well as floor staff. Nonetheless, this relatively minor 
inconvenience visited upon staff was acceptable as it was our 
responsibility to you to help manage the completion of the 
measure. Further, we note that despite the growing practice, 
budget resolutions were brought to completion, in large part 
because of the cooperation between the Chairman and the Ranking 
Member.
    Second, but infinitely more important, our greater concern 
is the feeling that this procedure diminishes and embarrasses 
the institution we love, too. Further, the spectacle of vote-a-
rama plays to the opponents of the congressional budget 
process--a process we obviously think that needs to be 
strengthened and preserved, particularly in these difficult 
economic times.
    Finally, we all agreed that the rights of the minority had 
to be protected in this process. And, of course, we think vote-
a-rama does protect those rights.
    We concluded, as you have, Mr. Chairman, that there must be 
a better, more orderly, fairer way to complete action.
    I was curious as to whether the Senators involved in the 
drafting of the original Budget Act had purposefully not 
considered Senate cloture procedures in crafting time 
limitations within the Act. Researching, I found very few 
answers. The legislative history of the Budget Act informs that 
the original bill to reform the budget process--introduced by 
Senator Sam Ervin and others in October 1973--included language 
on procedures for consideration of what was then referred to as 
a ``budget limitation bill'' that is almost identical to the 
language found today in Section 305 of the final Act, except 
that the introduced bill called for 60 hours of debate not 50. 
And when the bill was reported out of the Senate Committee on 
Government Operations in November 1973, the 60 hours had been 
increased to 100 hours with debate on amendments at 4 hours 
apiece.
    I think the Senate drafters were very clear and explicit 
that the budget resolution was to be treated as a highly 
privileged matter and those 100 hours, which they referred to 
as ``the equivalent of nearly 17 6-hour days,'' was to give 
assurances to both Houses of the Congress that adequate time 
for the full consideration of the budget would be held. I note 
also that in the original bill, as reported in the House, there 
would be a 10-day--unbelievable--a 10- day layover after the 
resolution was reported before it was considered in the chamber 
in its 10 hours. And today, of course, the House and the Senate 
can consider a resolution any day after it has been reported.
    I conclude from the legislative history that vote-a-rama 
was never envisioned simply because it was assumed that there 
would be sufficient and adequate time available for the full 
consideration both before and after the resolution was 
presented to the chamber; and, further, that the requirement 
that amendments offered to the resolution must be germane would 
also be a limiting factor.
    Now, thinking only the best motives of Senators, one could 
argue that vote-a-rama is not meant to be a delaying tactic, 
for after all a final vote will happen if out of exhaustion for 
no other reason. Rather, Senators must feel that the full 
consideration of such an important blueprint to guide fiscal 
policy somehow has not been achieved within the time available.
    Now, I recognize that arguing for additional time on a 
resolution or reconciliation bill runs counter to the pressures 
that are placed upon the current Majority Leader in managing 
the floor. And expanding time also would place tremendous 
pressure on the managers of the resolution to secure Senators' 
participation throughout the period and not, as the members are 
wont to do today, wait until the end of the period to offer 
their amendments.
    Alternatively, without increasing the statutory time for 
consideration, the argument for greater review of the 
amendments offered within the time constraints must be 
considered. And I think that is how the amendments have evolved 
since the mid-1990's. We have already heard about in 1997, with 
Republicans in the majority, the Senate did adopt--it did adopt 
on a 92-8 vote--an amendment offered by Senator Byrd that 
modified debate on reconciliation bills that: increased the 
statutory time on reconciliation; set a time period for filing 
of first degree amendments; but most importantly, that 92-8 
vote added in statute Senate Rule XXII that brought to a close 
all actions on reconciliation bills at the end of 30 hours.
    Chairman Conrad, you and Senator Gregg voted in support of 
that Byrd amendment as did my former boss, Chairman Domenici, 
and Senator Nickles. The amendment was added during the Revenue 
Reconciliation Act that year. The balanced budget could not be 
worked out, so it was dropped in conference.
    In 2001, as we have heard this morning already, the Senate 
once again adopted by a voice vote this time to a budget 
resolution--a Byrd amendment on a budget resolution that 
retained the 50 hours of debate on resolutions; increased time 
on reconciliation bills to the same, up to 50 hours, which I 
think is a good idea; and specified filing deadlines within the 
50 hours, but dropped the post-cloture rule from the previous 
proposal. Again, that amendment was dropped in conference also.
    In 2006, I believe the Chairman at that time, Senator 
Gregg, introduced reform legislation that maintained the 50 
hours but eliminated vote-a-rama by limiting time to 
``consideration'' rather than ``debate.'' And I think Senator 
Specter's proposal here today is simply an evolution of moving 
forward from the 2001 vote.
    So what should be done? Very quickly, Mr. Chairman, the 
Senate needs to decide what its goals are in considering a 
budget resolution. If the Senate wants to limit time for 
consideration of a budget reconciliation bill or to a specified 
time, there is one sure way of accomplishing through a hard and 
fast post-cloture type rule, and we understand the risk that 
creates for the minority.
    Alternatively, if the purpose of the budget resolution is 
to provide an opportunity for the Senate to engage in a 
logical, fully informed debate surrounding fiscal policy, as 
was envisioned by the original drafters of the Act, then I 
think the reform proposals that have been evolving since 2001--
setting deadlines for submitting amendments in a timeframe--
seem appropriate. The risk, many amendments, however, could 
still be filed and pending, requiring votes well beyond the 50 
hours or the 30-hour limit.
    My time is running out here so let me very quickly, if you 
will bear with me, Mr. Chairman, I have, with all due respect, 
a couple of recommendations I would proffer that might impact 
the amendments considered during budget deliberations.
    No. 1, require at a minimum, at least a minimum, of a 1-day 
layover of the reported resolution or reconciliation bill 
before proceeding to the Senate floor.
    No. 2, require unanimous consent to yield back time on 
budget resolutions or reconciliation bills.
    No. 3, if you decide to have 50 hours statutory time limit, 
limit it to two amendments per Senator and require--as is the 
practice today--to alternate amendments but begin with the 
minority having the right of refusal on the first amendment.
    No. 4, adopt in statute a very clear definition of 
``germaneness'' that would prohibit the consideration of the 
sense of the Senate amendments. I thought when I left here that 
was taken care of. I understand it is not the case today. I am 
not critical of the Senate Parliamentarian's office. I am just 
saying they have a job to do, too, and I think if that is put 
in statute, that might help.
    I might also suggest that that be extended to ``deficit 
neutral reserve funds,'' but I have not fully thought through 
the consequences of limiting that like sense of the Senate 
amendments.
    And then falling in the category of ``green eyeshade'' from 
the staff, I would say either do away with Function 920 
Allowances in the reported budget resolution, or if technically 
needed, make it out of order to offer an amendment that touches 
the function on the Senate floor. Function 920, Senator 
Whitehouse, has become a magic asterisk for unspecified offsets 
on the floor and creates a number of amendments.
    And, finally, one last observation. Mr. Chairman, I present 
with some trepidation. I believe that while increased vote-a-
rama activity in recent years is a function of many variables, 
one of those variables is whether the resolution is considered 
in an even-numbered or odd-numbered year. Budget resolutions 
have become messaging instruments, not budgeting instruments. 
Too many times I was aware of amendments drafted on both sides 
of the aisle to stoke political press releases, and it was 
unspoken, but generally understood, that political campaigns 
considered budget resolutions the mother lode of opportunities 
for political ads. I have no suggestions on how to deal with 
the ``gotcha'' amendments. I only observe that to the extent 
these type amendments continue to proliferate, reform of the 
procedures to consider a budget resolution will likely prove 
unsatisfactory.
    Thank you and continue to preserve the budget process.
    [The prepared statement of Mr. Hoagland follows:]

    [GRAPHIC] [TIFF OMITTED] 50923.016
    

    [GRAPHIC] [TIFF OMITTED] 50923.017
    

    [GRAPHIC] [TIFF OMITTED] 50923.018
    

    [GRAPHIC] [TIFF OMITTED] 50923.019
    

    [GRAPHIC] [TIFF OMITTED] 50923.020
    

    Chairman Conrad. Thank you, Bill. We very much appreciate 
your thoughtful testimony. And I tell you, sense of the Senate 
really became absurd, and I think Senator Gregg and I have been 
able to accomplish something in terms of discouraging sense of 
the Senate resolutions. But, you know, you talk about the 
ultimate absurdity, that really is it on a budget resolution, 
has no force and effect of anything. It is purely messaging, 
and it is a giant waste of time, in my judgment. We have been 
able to reduce that largely by an agreement between the two of 
us to discourage it on both sides. But you cannot prevent it 
without some stronger medicine.
    Mr. Dove, welcome, our former Parliamentarian, deeply 
knowledgeable on budget process and the precedents. Please 
proceed.

STATEMENT OF ROBERT DOVE, FORMER PARLIAMENTARIAN, UNITED STATES 
                             SENATE

    Mr. Dove. Thank you. First of all, I am not here as a 
representative of the Parliamentarian's office, and I 
appreciate Bill's acquiescence in that. I am a college 
professor now, and I teach about congressional procedure, and I 
talk about the budget process. And I tell my students, ``We 
meant well.''
    Basically, when Senator Byrd spoke of those hours in his 
office, I remember them. I was the representative from the 
Parliamentarian's office when this law was being crafted. I can 
explain to Bill why we did not use the cloture language which 
ends all possibility of amendment at the end of the time. That 
is because that cloture language did not exist then. The 
cloture rule in 1974 was the old rule, the two-thirds rule. It 
had no limitation on consideration. That came into being after 
basically that rule was shown in 1977 to be somewhat worthless. 
And then in 1979, a limitation on consideration was put in 
place.
    But I will tell you that I really picked up on Senator 
Byrd's statement about what was intended with the Budget Act 
and what has resulted. No, I do not recognize today's budget 
process from what was intended in the 1974 Act, and vote-a-rama 
was certainly never intended. I can think of reasons why it has 
happened and why probably there are members of the minority who 
would be loath to give up their rights to offer amendments, and 
it is largely because there are so few opportunities on the 
Senate floor to offer amendments in the recent past.
    I did see that Senator Specter complimented the Majority 
Leader on the open amendment process on the stimulus bill. My 
reaction is it is like a steam kettle. You fire it up, and it 
is going to come out someplace. If Senators can freely offer 
amendments on other measures, they may not be as interested in 
offering amendments on the budget resolution. But as long as 
the budget resolution stands almost alone as a way for minority 
members to get votes on things that they are very interested in 
getting votes on, you will be a target. And that is, I think, 
in a sense very sad for the budget process.
    The budget process, I will say, was devised in an 
atmosphere--Richard Nixon was the President when the budget 
process act was enacted. And the view, frankly, was that the 
Democratic Congress was going to continue forever, and that 
probably the Republicans were going to hold the White House 
forever. This is only 2 years after the landslide of the 1972 
bill, and it was a way for the Democratic Congress in effect to 
take their most important power, the money power, into their 
own hands.
    It has not worked out that way. Instead of taking power 
away from a President, to me the reconciliation process has 
given power to the President. President Reagan used it. 
President Clinton used it. President George W. Bush used it.
    When Senator Byrd talked about reconciliation and whether 
it was necessary, to me that is an area that I think the Budget 
Committee might concentrate on. That to me is what has been 
abused. Yes, vote-a-rama is an embarrassment, but the abuse of 
reconciliation is much more serious. After all, reconciliation 
bills become law. The budget resolution does not. So if----
    Chairman Conrad. Can I stop you on that point?
    Mr. Dove. Absolutely.
    Chairman Conrad. Because, you know, I think the impetus for 
this hearing was vote-a-rama.
    Mr. Dove. Yes.
    Chairman Conrad. But as we have gone through this hearing 
and the preparations for this hearing, there has been much more 
of a focus on reconciliation. And what you have just said I 
think is critically important for us not to lose sight of. And 
maybe here lies a place for compromise, because I, too, believe 
reconciliation has been abused, and been abused by both sides. 
It was never intended for the purposes to which it has been 
put, and the minority should be especially concerned about our 
now using the reconciliation process the way it has been used 
by both Democratic and Republican Presidents in the past.
    And I can tell you as the Budget Committee Chairman, I have 
been approached repeatedly already--repeatedly--about using 
reconciliation to achieve one goal or another, however 
meritorious, whether it is health care reform, whether it is 
global climate change legislation. I think we need as a body to 
think very, very carefully about do we want reconciliation to 
be used in that way, to override the normal process and to 
allow without ability to filibuster a simple majority to pass 
sweeping legislation.
    And we all know the make-up of the House. We know where the 
White House--the White House is in the hands of the majority. 
So this may be a critical moment for us to think very carefully 
about reconciliation.
    Please.
    Mr. Dove. That is really very encouraging. I think maybe 
there is the basis for some kind of grand bargaining, because I 
remember very well in January of 2001 when the House passed a 
budget resolution providing for multiple tax reconciliation 
bills. And the idea was the Senate was going to be dealing with 
these all year long, just one after another. And I gave advice 
that that was not in order, that the Senate should only deal 
with one tax reconciliation bill. And as far as I know, the 
Parliamentarian's office has maintained that advice. But it has 
been abused, yes.
    That basically is where I would come down on this issue.
    [The prepared statement of Mr. Dove follows:]

    [GRAPHIC] [TIFF OMITTED] 50923.012
    

    [GRAPHIC] [TIFF OMITTED] 50923.013
    

    [GRAPHIC] [TIFF OMITTED] 50923.014
    

    [GRAPHIC] [TIFF OMITTED] 50923.015
    

    Chairman Conrad. This may be a very critical moment for 
this body and this Committee and this Budget Act. And if I were 
in the minority at this moment, I would want to think very, 
very carefully: Do I want an unfettered reconciliation process? 
Now, it may not get used this year. May not. I have been 
arguing strenuously against it. But I can tell you, there are 
people who have a very different view. And I do not think my 
views will be dispositive. And just as I know there is enormous 
pressure to use it this year, I suspect those pressures will 
only grow. And next year we will really be confronted with 
intense pressure to whatever extent the agenda does not move 
this year.
    With that, Mr. Heniff, welcome.

 STATEMENT OF BILL HENIFF JR., ANALYST, CONGRESSIONAL RESEARCH 
                            SERVICE

    Mr. Heniff. Mr. Chairman, members of the Committee, thank 
you for inviting me here today to present information on the 
topic of the consideration of the budget resolution and 
reconciliation legislation. It is a privilege and an honor to 
have this opportunity to testify to the Senate Committee on the 
Budget, and I hope you will find the information I present 
today helpful as you consider how the process might be 
modified.
    I will add that it is also an honor and a bit humbling to 
be on the same panel as those so much more experienced than I--
Bill Hoagland and Bob Dove.
    The Chairman and others have noted the contours of the 
vote-a-rama. As provided by the Budget Act, budget resolutions 
and reconciliation have debate limits, putting some constraints 
to expedite consideration, but not too strict constraints such 
as Rule XXII, the cloture rule.
    In my testimony this morning, I plan to provide a brief 
description of the information my colleagues and I compiled at 
the request of the Committee to help you assess the proportion 
of amendments and roll call votes that might be affected by 
various proposals that change the procedures.
    Let me first tell you what we did. We reviewed the 
amendment activity related to the budget resolutions and 
reconciliation legislation for the period 1987 to 2008, 
covering the 100th Congress to the 110th Congress, a period 
that includes an equal number of years with a Democratic 
majority and a Republican majority.
    Specifically, for both budget resolutions and 
reconciliation bills, we examined the number of amendments 
offered, the number of roll call votes in relation to those 
amendments, and the disposition of those amendments, both 
before and after the expiration of the statutory limit on 
debate. This information and a more extensive analysis is 
provided in a memorandum we have provide the Committee.
    Now let me make some general observations based on that 
study.
    The first observation is that the existing procedure under 
the Budget Act does not require a vote-a-rama every year on the 
budget resolution or on reconciliation legislation. In the 
first 6 years of this study, 1987 to 1992, as well as 2 years 
since 1992--in 1994 and 2004--the Senate completed all 
consideration of the budget resolution, including disposing of 
all amendments offered within the statutory 50-hour limit on 
debate. That is, in the period we looked at, eight times the 
Senate considered the budget resolution without a vote-a-rama.
    As for reconciliation legislation, the Senate completed all 
consideration, including disposing of all amendments offered, 
within the statutory 20-hour limit on debate twice--both prior 
to 1990.
    Indeed, there is variation regarding the amendment activity 
under the existing procedures. However, experience becomes 
practice with regularity. In most years since 1992 for the 
budget resolution and every reconciliation measure considered 
since 1989, the Senate has had a vote-a-rama. My next set of 
observations provides some numbers to objectively illustrate 
the extent of vote-a-rama. These numbers relate to the 
consideration of the budget resolution, but the patterns are 
the same with reconciliation legislation.
    First, let me present data on the amendments actually 
offered after time expired. These are amendments that receive 
little or no floor debate after being formally presented to the 
Senate. And it is this set of amendments that most concern many 
Senators because these amendments may not be available for a 
sufficient amount of time and debate before having to make a 
decision on them.
    Since 1992, an average of 31 amendments have been offered 
after time expired. This makes up about 41 percent of the total 
number of amendments offered to the budget resolution. And, 
again, this is the proportion of amendments that might not have 
been available in writing until shortly before the vote and 
that likely received little or no actual discussion on the 
floor.
    Second, let us talk about the numbers that perhaps directly 
speak to the vote-a-rama, the number of amendments disposed of 
after the expiration of the statutory time limit on debate. I 
say these amendments directly speak to the vote-a-rama because 
it is these that are included in the succession of votes after 
time expired. As we have heard from Senators and other 
panelists, it is this succession of votes that some complain is 
confusing, frantic, and opens the door to potential mistakes.
    Between 1993 and 2008, most amendments offered to budget 
resolutions were disposed of after debate time expired. An 
average of almost 49 amendments, or 65 percent of the total 
number of amendments, was disposed of after debate time 
expired. Now, some of these were offered before time expired. 
They may or may not have been debated at length. But they at 
least were available for review. The data show that about 24 
percent of the total number of amendments, or an average of 
almost 18 amendments per budget resolution, were offered before 
debate time expired, but not disposed of until after time had 
expired.
    The third set of numbers I want to highlight is the 
percentage of amendments on which a roll call vote occurred. 
These figures address the amount of statutory debate time being 
consumed by voting. They also represent to some degree the 
extent to which Senators are registering their individual 
preferences on amendments that may or may not have been 
available before the vote and that may or may not have been 
discussed on the floor before the vote.
    After 1992, again, when the Senate has regularly considered 
the budget resolution, including amendments, beyond the 50-hour 
debate limit, most amendments were disposed of without any 
associated roll call vote. That is, 57 percent of all 
amendments were disposed of without a roll call vote. And roll 
call votes were more likely to occur in relation to amendments 
disposed of before debate expired than in relation to 
amendments disposed of after debate expired. That is, over half 
of the amendments disposed of before debate time expired 
received a roll call vote. In contrast, only about 39 percent 
of the amendments disposed of after debate time expired 
received a roll call vote.
    Most amendments offered to budget resolutions are disposed 
of by unanimous consent or voice vote or withdrawn. When 
amendments are disposed of by roll call vote, more of those 
roll call votes occur before debate time expires than after.
    That is the research that we provided, as I said, in the 
memorandum. CRS, of course, would be happy to do further 
research to address this information or any other questions 
that you may have.
    Thank you, and I would be happy to answer any questions now 
as well.
    [The prepared statement of Mr. Heniff follows:]

    [GRAPHIC] [TIFF OMITTED] 50923.021
    

    [GRAPHIC] [TIFF OMITTED] 50923.022
    

    [GRAPHIC] [TIFF OMITTED] 50923.023
    

    [GRAPHIC] [TIFF OMITTED] 50923.024
    

    [GRAPHIC] [TIFF OMITTED] 50923.025
    

    [GRAPHIC] [TIFF OMITTED] 50923.026
    

    [GRAPHIC] [TIFF OMITTED] 50923.027
    

    [GRAPHIC] [TIFF OMITTED] 50923.028
    

    [GRAPHIC] [TIFF OMITTED] 50923.029
    

    [GRAPHIC] [TIFF OMITTED] 50923.030
    

    [GRAPHIC] [TIFF OMITTED] 50923.031
    

    [GRAPHIC] [TIFF OMITTED] 50923.032
    

    [GRAPHIC] [TIFF OMITTED] 50923.033
    

    [GRAPHIC] [TIFF OMITTED] 50923.034
    

    [GRAPHIC] [TIFF OMITTED] 50923.035
    

    [GRAPHIC] [TIFF OMITTED] 50923.036
    

    [GRAPHIC] [TIFF OMITTED] 50923.037
    

    [GRAPHIC] [TIFF OMITTED] 50923.038
    

    [GRAPHIC] [TIFF OMITTED] 50923.039
    

    [GRAPHIC] [TIFF OMITTED] 50923.040
    

    [GRAPHIC] [TIFF OMITTED] 50923.041
    

    [GRAPHIC] [TIFF OMITTED] 50923.042
    

    [GRAPHIC] [TIFF OMITTED] 50923.043
    

    [GRAPHIC] [TIFF OMITTED] 50923.044
    

    [GRAPHIC] [TIFF OMITTED] 50923.045
    

    [GRAPHIC] [TIFF OMITTED] 50923.046
    

    [GRAPHIC] [TIFF OMITTED] 50923.047
    

    [GRAPHIC] [TIFF OMITTED] 50923.048
    

    [GRAPHIC] [TIFF OMITTED] 50923.049
    

    [GRAPHIC] [TIFF OMITTED] 50923.050
    

    [GRAPHIC] [TIFF OMITTED] 50923.051
    

    [GRAPHIC] [TIFF OMITTED] 50923.052
    

    [GRAPHIC] [TIFF OMITTED] 50923.053
    

    [GRAPHIC] [TIFF OMITTED] 50923.054
    

    [GRAPHIC] [TIFF OMITTED] 50923.055
    

    Chairman Conrad. Thank you very much.
    Let me ask each of you, what are the two or three things 
that you think are most important to reforming the process? If 
you could pick out two or three things and say, look, these are 
things that you really ought to try to accomplish in terms of 
reforming the process, what would those be? Bill?
    Mr. Hoagland. As it relates specific to vote-a-rama or 
general?
    Chairman Conrad. Either way.
    Mr. Hoagland. Well, specific to vote-a-rama, I think I 
outlined specifically some--I think you really do need to put 
some layover time after the resolution is reported from the 
Committee and before it goes to the floor. Whether that is 1 
day or 2 days, I do not know. But I think going straight from 
the Committee to the floor creates problems.
    I also think you ought to require----
    Senator Sessions. You mean a layover from the Committee----
    Mr. Hoagland. To the floor, yes, sir. Yes, Senator.
    Senator Sessions. You are not talking about the amendments 
at this point.
    Mr. Hoagland. No, no, no. In fact, the theory a little bit 
is, as I think--when I think about why that original Budget Act 
has 10 days' layover in the House with only 10 hours on the 
House floor, I think the theory when I read the history, Bob, 
was that this would give members a chance to actually read the 
resolution and understand what is in it. Some amendments they 
would not offer because they now understood what was in it, 
because lots of amendments get created because people just--
staff are creating amendments down there because they want to 
get to it as quickly as possible.
    The other one, I guess I would also suggest that this 
germaneness issue--I know we talked about relevancy. I will 
leave it to the Parliamentarian to get into that, but I think 
you really do need to specify that we know those are not 
germane amendments. And if you have to write that in statute--
it is like pornography. We know it when we see it, and let us--
you have got to tighten that up on the sense of the Senate. And 
I think one--I am going to go here a little bit further than I 
should. I think that deficit-neutral reserve funds are just a 
little bit higher-class sense of the Senate amendments. And I 
know that Senator Domenici, when I was here as staff, with 
Chairman Gray over in the House, we started those things, and 
we probably should not have.
    And then, of course, I would not be true to my old boss if 
I did not say that in the broad scheme of things, I think it 
would be nice if there was a way that we could have a biennial 
budgeting and appropriation process. Do the authorizations, 
give time for the authorizing--this is not just the Budget 
Committee. This is the whole Senate. We were always criticized 
as occupying too much time, that the budget takes up too much 
of the time of the Senate. If there is a way to do the 
appropriations and budgeting 1 year and give time for the 
authorizing committees to do their oversight and work, maybe 
that would be another approach.
    I will stop there.
    Chairman Conrad. Let me ask you, on reconciliation, do you 
think we ought to take action with respect to reconciliation?
    Mr. Hoagland. I am hesitating. I am thinking, in honor of 
President Lincoln's birthday today, better to remain silent and 
thought a fool than open one's mouth and remove all doubt.
    President Carter used reconciliation, Bob.
    Mr. Dove. The big bill of 1980 was put through when 
President Carter was in office. I would not say that he used 
it. It was regularly used against him because his budget was 
rejected. And to me, that leads me to my suggestion. I do not 
think a budget process that tries to shut out the President is 
a good idea. I wish the budget resolution were a joint 
resolution and that the President, therefore, would have to 
sign it, and you would no longer have Presidential budgets that 
come down and are marked ``dead on arrival,'' as I have seen in 
many ways. And I also think it is not necessary to have a 
written unanimous consent agreement into a law for handling the 
budget resolution.
    We thought it was a good idea in 1974. In retrospect, I do 
not think it was a good idea. I do not think people who are in 
the Senate now feel that they had anything to do with writing 
that unanimous consent agreement in 1974 and, therefore, look 
at ways to get around it. I think the budget resolution could 
be handled as a joint resolution in the normal process that 
other things are handled in the Senate, with the President 
having to sign it at the end.
    Chairman Conrad. And how about reconciliation?
    Mr. Dove. Well, I have already mentioned that, to me, the 
great departure from what was perceived in 1974 was, I think, 
the perversion of the reconciliation process. It was never 
designed to be anything like it has become.
    Chairman Conrad. They would not believe it, would they? I 
think Senators at that time would be absolutely stunned at how 
reconciliation has come to be treated.
    Mr. Dove. Well, I can tell you, in the 1975 reconciliation 
bill, Senators were stunned on the floor that it was a 
reconciliation bill. In the 1980 reconciliation bill, Senators 
were stunned. And even in 1981, a number of Senators were 
stunned. Yes.
    Chairman Conrad. Other elements in terms of priorities, Dr. 
Dove, that you think if you were in charge of writing a reform 
package, the two or three things that you would most emphasize?
    Mr. Dove. Well, I do not know how you would reform this, 
but what I remember is the Budget Committee that I started 
working with in 1975 was a truly bipartisan Committee. Senator 
Muskie and Senator Bellmon worked together and defended the 
budget that they had come up with together. I do not know how 
easy it would be to return to that kind of system. But to me, 
it is not a good thing that the Budget Committee is so divided 
on a partisan basis.
    Chairman Conrad. You know, the Budget Committee was seen as 
a very different instrument at the time, that you would have 
Finance Committee represented here, you would have 
Appropriations Committee represented here at a high level. And 
that other key committees, the heads of, would be here. And you 
would work out a budget that then would be enforceable 
throughout the year to prevent the siloing effect of what 
occurs without the budget process.
    Mr. Dove. Well, that is what happened. I remember Senator 
Muskie taking on Senator John Stennis, a very powerful Senator, 
over a defense issue and beating him. It was seen as a turning 
point for the Budget Committee that they had basically proven 
themselves that they would take on the vested interests and 
win.
    Chairman Conrad. Mr. Heniff, what would be your two or 
three top priorities?
    Mr. Heniff. Well, I guess, first, of course, CRS has no 
official position on any particular reform. But I will say two 
things:
    First, I think it is important, as you consider changes to 
this process, to think of the budget resolution and 
reconciliation separately. And it may be time to decouple the 
two. In my capacity at CRS, I am often asked questions relating 
to the two, and there is a lot of confusion between the two. 
And it is very important to understand, as this Committee 
obviously knows, that a budget resolution does not become law. 
And so the consideration of the budget resolution is quite 
different than a reconciliation bill that does become law, and 
if mistakes happen, they have graver consequences.
    The second point I would make is that it is important that 
with regard to the budget process--and this is basically the 
history of the budget process--is that if the budget process 
loses support, then it loses its legitimacy. And so I would 
just simply suggest, rather than take a position on any 
particular reform proposal, to keep in mind that if there is 
not a lot of support for the budget process and all its 
elements, then it can lose its legitimacy. And so this hearing, 
I think, is basically addressing that.
    Chairman Conrad. All right. Senator Sessions, for Senator 
Gregg.
    Senator Sessions. Well, I would be glad to let Senator 
Alexander, who was here before me, take my time.
    Senator Alexander. That is nice of you.
    Chairman Conrad. Senator Alexander.
    Senator Alexander. Thank you, Senator Sessions.
    This has been real helpful, and I wonder if I could in my 
comments and my time get the sense of the other Senators here 
about, you know, where we go from here with this. What occurs 
to me--and Senator Whitehouse is here within the last 3 years. 
We have a lot of new Senators, and even some who have been here 
a while, like me, who do not have a clue what reconciliation 
means, how it is different from the budget process, where this 
all came from, what it was supposed to accomplish, and whether 
it deserves some amendment. So understanding what we are 
talking about would seem to me to be a precondition of doing 
anything within the Senate, because if we were to make some 
recommendations to the whole Senate about the budget process 
and reconciliation, they would not know what we are talking 
about. That happens all the time around here, but in this case, 
I do not think we should.
    So one thing we could do or could consider doing is during 
our Tuesday morning bipartisan breakfast, we might spend one or 
two times just bringing people up to speed, those who would 
like to come, on reconciliation and the vote-a-rama and 
minority rights and these various issues. There is no school 
for this except being here a long time. So that is one thing 
that occurs to me, and I wonder if the Chairman might want to 
think about that, and Senator Sessions and Senator Whitehouse 
might want to think about that, too, as we go ahead.
    The second thing that occurs to me is I really appreciate 
what both the Chairman and Judd Gregg said about your motives 
here. We do not question each other's motives, but it is nice 
to hear you say that this is not a time when you want to ram 
through some rules changes at a time when you could. It was 
nice to hear Senator Byrd say that this would be a good time--
he added that to his statement, actually--to have some 
civilized discussion about procedures around here. That would 
be very helpful. Again, maybe our bipartisan breakfast could 
spend a couple or three times on different aspects of that 
before we choose up sides and say, oh, you are working on 
minority rights. Maybe Senator Byrd could be a part of that.
    Chairman Conrad. Can I just interrupt the Senator on this 
point and say to you, I tell you, there is no single element of 
Senate rules that goes more against minority rights than 
reconciliation that I know of. Reconciliation is the 800-pound 
gorilla, and I have already been approached on three occasions 
about my willingness to use reconciliation to do things, 
because a simple majority, no ability to filibuster. Now, that 
is real power of a process. No ability to filibuster, simple 
majority, and other than Byrd Rule issues, boy, you could 
really grease the skid.
    Senator Alexander. That is true, and as Senator Byrd--I 
wish he were still here because I can remember how he and 
Senator Baker used to work when they were Leaders. There is 
that great story in 1981 when Baker suddenly became the 
Majority Leader. He went over to Byrd and said, ``Bob, you know 
more about the rules than I ever will. I will make a deal with 
you. I will not surprise you if you do not surprise me.'' And 
Senator Byrd said, ``I will think about it.''
    [Laughter.]
    Senator Alexander. And the next day he told him yes, and 
that is how they worked. I am oversimplifying this, but 
basically they worked out an understanding, sort of a general 
unanimous consent agreement by which the Senate ran which 
protected lots of minority rights and created lots of 
opportunities and it worked pretty well. And Senator Byrd has 
said publicly that during that time the idea of filling up the 
tree as a way of using the Majority Leader's prerogative to 
limit minority rights was rarely--rarely--exercised. That was 
not the spirit of the Senate. That is not the way they work.
    Senator Byrd gave a speech to an orientation of Senators in 
1996 that was distributed to new Senators this year. It was so 
good that I gave it out to every member of the Republican 
Conference because it is one of the most eloquent defenses of 
minority rights that anyone could have. And it is in the same 
spirit as his testimony today.
    And if you go all the way back to de Tocqueville's writing 
in the 1830's about our democracy, this young Frenchman who 
came here to observe what we saw and, you know, ran into all 
sorts of strange people like Davy Crockett and had a little 
opinion of Andrew Jackson and wrote it all down. The one thing 
he said was the greatest danger to the American democracy, he 
said, was ``the tyranny of the majority.'' The Senate is the 
one place where that is so visibly protected. And as Senator 
Byrd said in here, what makes the Senate different is virtually 
unlimited debate, virtually unlimited amendment.
    We are talking about a big subject here, and we have made a 
few little steps back this year to getting the Senate 
functioning like it is supposed to function. But even though we 
are debating amendments, we are not taking very long to do it, 
for example, on this $800 billion bill, and it did not go to 
authorizing committees. I mean, the thing that we are passing 
is probably the biggest education bill ever passed without any 
consideration of policy. It is probably one of the biggest 
energy bills ever passed without any consideration of policy. 
It is a major preemption of the national health care debate we 
are going to have later this year. I am not making a speech 
about the stimulus bill, but we have got a ways to go before we 
get back to the regular order of things.
    I greatly welcome this testimony and the spirit of it, and 
I would like to see us take additional steps. Senator Reid has 
taken steps with more amendments. That is good. You have taken 
some steps with this hearing. That is good. Maybe we could 
think of ways and maybe Senator Sessions, Senator Whitehouse, 
and Senator Conrad can reflect on whether it would be useful to 
have two or three sessions at our bipartisan breakfast on where 
reconciliation came from and where the budget came from as we 
approach the budget. In that time we might get a number of 
Senators interested in these issues, and from that might come a 
grand bargain. That would be a pretty big bargain if we ever 
got to that, or maybe even a minor change like agreeing on the 
layover.
    One of the issues, it seems to me--and I am not asking 
questions because I have listened. But one of the issues is it 
all goes so fast that Senators do not have time to consider 
everything. And the other is if you fill up the tree, then 
there is no outlet for all these amendments. Well, if Senator 
Reid allows a lot of amendments, and if we have a longer 
layover even than 1 or 2 days and more time to debate, maybe 
the vote-a-rama takes care of itself. And maybe it is reduced 
as much of a problem.
    This has been a terrific discussion. It is almost Senate 
101, and it is the course that most of us skip coming in here, 
and maybe one of the services that we could do is help other 
Senators--how many new Senators do we have? I almost need a 
photograph album. You know, it is like a bus station down here, 
people coming in I have never seen, barely heard of before. I 
mean, how are they going to know about all this?
    Maybe we could make a special effort to see if we could 
bring up the level of understanding so we could adopt some of 
these suggestions.
    I apologize for not asking questions, although I have 
listened to every single word, and I thank Senator Sessions for 
giving me a chance to make my remarks.
    Chairman Conrad. Thank you very much. They are very 
thoughtful remarks, and this is an opportunity to fix some 
things that really do need fixing, and to fix them in a way 
that is not an attack on minority rights. In fact, I tell you, 
I have not thought it through fully, but I would be--I think I 
could be persuaded on reconciliation. And if you are in the 
minority, if somebody in the majority says they would consider 
altering the reconciliation process, you should think very 
carefully about that. That is a big thing.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman. I have enjoyed 
being at this hearing, and I was particularly struck by the 
testimony of the President Pro Tempore, Senator Byrd. He has 
served in this institution longer than any other human, I 
believe. He has led it. He has studied it, I think more 
assiduously than any other Senator. He knows its rules and its 
nature better than any person ever has, I believe. And when he 
uses words like ``pandemonium'' ``carnival,'' ``ignominy,'' 
``ridiculous,'' ``chaos,'' and ``spectacle'' about an 
organization that he loves so deeply and has dedicated so much 
of his life to, I think that sends a very cautionary message 
out.
    I had the mixed pleasure--I am still so excited to be here 
that every day is a good day. But in that context, it was a 
little strange to go through the 2007 experience that Senator 
Byrd chronicled in his testimony. And we were the new Senators 
then, Senator Alexander, and we were still finding our way 
around. And as we went up to vote on these kind of 
preposterous, comical, bomb-throwing, positioning amendments, a 
lot of the new freshmen at the time were thinking and saying to 
each other, ``You know, this is just too damn silly to vote 
on.'' And so we at the time discussed the idea of actually 
changing the Senate voting tally so that your choices were 
``yea,'' ``nay,'' or ``too damn silly to vote on.''
    Senator Alexander. Mr. Chairman, if I may say, Senator 
Whitehouse actually wrote that down on a piece of paper, and it 
was ``yes,'' ``no,'' ``maybe,'' or ``too silly to vote on.'' 
And we have it framed and hanging in my office in case anyone 
wants to see it.
    [Laughter.]
    Senator Whitehouse. And, you know, that is probably not the 
right rule change to make to solve this problem, but I do think 
it touches on a point, which is that if the Senate is dignified 
and decent, then we can find a way to have that dignity and 
decency control. If the Senate is itself neither dignified nor 
decent, then no amount of rules are going to make us behave 
that way.
    But it does seem to me that through peer pressure and 
through some mechanism--I mean, perhaps there could be a point 
of order raised that something is too damn silly to vote on so 
that the opprobrium of peers can be brought to bear when a line 
is cross of some kind. Then you do not actually have to change 
the voting tally, but, you know, you are back to yea and nay 
again. I am far too new here and too junior here to get too 
deeply into the details and the weeds of this discussion, and I 
certainly am too respectful of others' judgments to suggest 
that that is a fine idea and we should sign up on it. But I do 
think that there is an element in this discussion of using the 
rules that we do pursue to enable the better angels of our 
nature to come forward, because I can remember one particular 
amendment that I thought was just idiotic. It happened to be a 
Republican amendment, but we had ones that were blameworthy as 
well. So I am not picking that as an example to make a partisan 
point. But what I remember from that is Republican Senators 
coming forward to vote on that, and they looked as miserable 
and as ashamed as we did.
    And so I think that there is a critical mass that can be 
obtained once things get beyond a certain point, and so there 
may be hope for solving this, and I hope to be helpful in doing 
it. I think Senator Alexander's idea of trying to take this up 
a little bit more formally, particularly with the new Senators, 
is a very good one.
    Two quick questions.
    Senator Specter indicated that he thought ``relevancy'' 
might be more useful than ``germaneness.'' I think of 
``relevancy'' as a judicial term, ``germaneness'' as a 
legislative term. I would ask Dr. Dove, the Parliamentary, I 
would expect that after hundreds of years of operations we had 
a pretty nailed-down definition of ``germaneness'' from a 
Parliamentarian point of view.
    And the second question is: With respect to his proposal 
that a joint resolution and a Presidential signature might help 
with this, would that not have the effect of accomplishing a 
fairly significant power shift from legislative to executive 
branch?
    Those are the questions.
    Mr. Dove. OK. The first one I can address because I was at 
a meeting where they were working out an agreement where they 
were going to impose germaneness, which because of the series 
of precedents set in the late 1970's had become an 
extraordinarily narrow area. And I actually suggested that they 
use the term ``relevant,'' and I said our office would 
interpret that in a rather broad subject matter test.
    It was accepted, and that is why there are now two 
standards. Relevancy seems to be more useful, frankly, from a 
Senate standpoint of limiting amendments without limiting them 
in an extraordinary way.
    As to the joint resolution giving power to the President, I 
can tell you the whole purpose of the Congressional Budget Act 
was to snatch away power from the President. In my view, it did 
not work. It simply allowed Presidents like Reagan and Clinton 
and George W. Bush to get their programs through in spite of 
the Congressional Budget Act trying to take power from them 
without any responsibility and made a division in terms of 
Presidential budgets and congressional budgets that to me is 
artificial.
    That is why I suggested--if it had worked, if basically 
Congress had been able to marginalize the President's role on 
budgeting--as they wanted to do in 1974--I would not have this 
proposal. But I do not think it has worked.
    Senator Whitehouse. Mr. Chairman, in the final seconds that 
I have, let me just join you in thanking these witnesses for 
their testimony. I think for as long as I am here, I will 
continue to be a student of this institution, and their 
considerable expertise and time here and their palpable 
affection and regard for the institution I think has been very 
salutary this morning. Thank you.
    Chairman Conrad. Thank you, Senator Whitehouse.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman. It has been a 
very excellent hearing. In all of your hearings, you allow 
honest discussion, and I appreciate that. Sometimes it does not 
always occur in the Senate.
    I think, Bob, you did not notice there that slipping into 
the back of the room was a wonderful lady whose presence in 
front of the presiding officer in the Senate, a little better 
visage for the Senate than when you were sitting there, your 
daughter, Laura, back there who is a fabulous staff member of 
the Senate, and we appreciate her and you did a good job 
raising that young lady.
    Bob, wasn't it the purpose of the Budget Act--this is just 
an impression I have--that various committees would go out and 
report appropriations reports and spending, and there was no 
real way for somebody to say, wait a minute, this one wants to 
spend more here, this one wants to spend more here, and you 
couldn't stop it? So the budget was created to say this is all 
you have. It was designed to contain an unhealthy tendency of 
each Committee appropriations--each appropriations bill, more 
correctly--to exceed a reasonable amount and, therefore, 
subject the country to excessive spending?
    Mr. Dove. You are absolutely right in that the Budget Act 
was aimed at appropriations. The reconciliation process was 
aimed at appropriations. The view was that under the original 
act, which had not just one but two budget resolutions, that 
having passed the first one, if during the summer the 
Appropriations Committees had passed bills that the Senate 
thought were excessive, in the second they would limit that 
using the reconciliation process and, in effect, draw back 
appropriations. That was----
    Senator Sessions. The Budget Committee had a power to 
actually constrict the appropriations process.
    Mr. Dove. Through the use of reconciliation. That was the 
idea. That has never been taken into effect. Frankly, the 
Appropriations Committee I think was simply too powerful.
    Senator Sessions. Well, that is probably true. But did it 
have some impact in containing excessive spending or, in your 
opinion, very little?
    Mr. Dove. The Appropriations Committee, which before 1974, 
in effect, was the Budget Committee, I think was turned by the 
budget process from a committee which really, I think, tried to 
guard the taxpayers' dollar into a committee that now tries to 
spend every dime it can get away with under the budget process 
and then hide behind the thing that, ``Well, it is the Budget 
Committee that is supposed to be controlling us. And if we can 
do things like changing a pay date from September 30th to 
October 1st, we should be able to do that.'' They have come up 
with repeated ways, in effect, to spend every dime they can 
under the present process.
    Senator Sessions. That is my observation, that sometimes it 
makes you think that they consider their very existence, the 
most important characteristic of some of the members is to see 
how much they can beat the budget and see how much more they 
can spend than they were actually allocated, and the more they 
are successful, they feel like they have accomplished 
something.
    That is too unkind. You know, I know that was an 
exaggeration. I probably should not have said it. But every now 
and then, that thought crosses my mind, I will admit.
    Now, the Chairman is correct. A lot of this is about pure 
power. I remember in Alabama one time when President Reagan was 
running for President against George Bush, the First, and the 
State committee was set to vote, and the question was: Was it 
winner take all, in which case Reagan would get every delegate, 
or proportional representation, in which Mr. Bush would get a 
number of delegates?
    Well, they had the most beautiful political side speeches 
you ever heard, but after it was over, I observed that 
everybody that was for Ronald Reagan had a beautiful argument 
for winner take all, and everybody who was for President Bush 
had the proportional representation.
    So every time one party has a majority, they begin to make 
the same arguments the other party was making previously 
because it is so close to us and it is hard to get in and see 
it in perspective.
    So, Mr. Chairman, you courageously have given us some 
perspective here for the long term, and it is hard to do in the 
immediacy of the issues we face.
    I will just tell you one of the things I worry about: End 
runs around the budget are increasing, it seems to me. We had 
the war supplemental each year, sometimes more than one a year, 
and that was used to tack on other things to it. We had the 
hurricanes. Each year we had at least a hurricane or some 
emergency of that nature, and other things get added to it. 
This past fall, we passed the $700 billion TARP outside the 
budget process. We just finished or are about to finish the 
$800 billion stimulus bill outside the process. And we are 
expecting more housing and financial TARP-like money or housing 
bailout money all outside the process.
    This year, during this period, the numbers are so huge, it 
is almost as much as the discretionary budget. It may be as 
much as the discretionary budget.
    Do you sense that another erosion of the power of the 
process, Mr. Hoagland and Mr. Dove, is the emergency spending 
idea and when we get outside of it, we have a core emergency 
need and tacked onto it are matters that should normally go 
through the budget process?
    Mr. Hoagland. Senator Sessions, one of your colleagues told 
me just 2 weeks ago, ``Why do we need a budget anymore?'' on 
the concept that given what is going on, does the budget matter 
anymore? And so I would wholeheartedly agree with you that if 
this Committee is to start to re-establish its role, which I 
still think it has a major role in setting broad fiscal policy 
in this country, spending, revenues, I think you need to 
seriously revisit the whole issue of a definition of 
``emergency spending'' or set up some mechanism to bring it 
back through this Committee to revise the budget resolution 
appropriately. I realize that is time-consuming, but the 
definition of ``emergency'' I think was crafted at that 1990 
Andrews Air Force Base with Dick Darman because it was 
necessary, immediate, and we were about ready to go into Kuwait 
at that time.
    The problem was we set discretionary caps, and then we 
said, But we cannot anticipate floods, hurricanes, wars, and so 
we have to have this definition of ``emergency.'' And I think 
the emergencies now have kind of gotten out of hand. As you 
will recall, the Census Bureau was defined as an emergency one 
time even though we knew it was coming 10 years in advance.
    Senator Sessions. In fact, Bob, I would like for you to 
comment, but just to note that is a lack of will in the Senate. 
I mean, we have the ability to say no, this is not an 
emergency; you have got too much in this bill that is not an 
emergency, and we will not waive the Budget Act. But the truth 
is, as a practical matter, it seems to me we lack the will to 
challenge the core emergency spending bill to fix that.
    Would you comment on that, Mr. Hoagland and then Bob?
    Mr. Dove. Well, I am reminded of Brutus' statement that the 
fault is not in the stars but in ourselves. Yes, only the 
Senate can govern itself, and if it wants to get around the 
budget, it does.
    Mr. Hoagland. I have been away a little while, so I may 
have forgotten the procedure, and the staff will certainly 
correct. But I thought you did have a point of order against 
items as to whether it was an emergency or not, that you could 
raise the point of order against that as specifically not 
emergency.
    Now, again, it is not self-executing. You have to raise the 
point of order. But unless there are 60 votes to waive you can 
knock out an emergency disgnation
    Senator Sessions. Against a line item in the bill?
    Mr. Hoagland. Yes.
    Senator Sessions. Is that right, Mr. Dove? Do you recall?
    Mr. Dove. I have been away too long. I am sorry.
    [Laughter.]
    Senator Sessions. Thank you for the advice. I am going to 
check that, Mr. Hoagland. I have got to tell you.
    Well, I want to thank you for your suggestion on biennial 
budgeting. I really believe that is a good reform. That is a 
good government reform.
    Mr. Chairman, one point, I tried to push it, and the 
Democrats were in the minority, and they felt, I think, a 
little uneasy. Then they got the majority for a while there, 
and they were still uneasy, and some Republicans were, and vice 
versa. But I really think, if anything, it may be a benefit to 
the majority to do biennial budgeting. And I do not see how it 
hurts the minority--I mean helps the minority, who could 
wrestle through this process and extract some concessions, you 
know, to go through the process each year and maybe get a 
little more.
    So, at any rate, I would hope we could discuss that again. 
President Clinton favored it. President Bush favored it. Pete 
Domenici, a lot of Appropriations Committee members do, so 
maybe we can consider it.
    Chairman Conrad. Absolutely. One of the great things about 
the U.S. Senate is nothing is ever settled.
    [Laughter.]
    Chairman Conrad. I want to thank all the members who have 
participated. I want to thank the witnesses. There just has to 
be a better way, and I think some of the suggestions here have 
been especially helpful, and I am delighted that the three 
witnesses were willing to come here and put your energy and 
your effort into testimony and providing your insights to this 
Committee, because I think we have got an opportunity here to 
improve things.
    One of the things that just jumps out at you--and, Dr. 
Dove, I think your testimony really hit on this point: 
unintended consequences. I do not think anybody--if you would 
go back to 1974--would ever have dreamed the reconciliation 
process was going to be used the way it has been. It would 
never, ever have gotten through if people would have thought it 
was going to be used in this way. And, you know, both sides 
have used it in a way that I think is way beyond what was ever 
intended. And I think we had better think very carefully about 
that as we go into this new Presidency, because anybody that 
does not think the pressure is going to build to use 
reconciliation for a certain purpose--it was used for tax cuts 
in the Bush administration. There is absolutely no reason this 
majority cannot flip it and use it for spending. And I can tell 
you, health care reform and climate change are out there, and 
people are thinking about options for how they move it, and 
move it with the least resistance possible. And reconciliation 
is the tool that some are thinking about. So that is the 
reality.
    I very much like, Senator Alexander, your proposal that we 
take this up in the bipartisan group for several sessions or 
whatever in your judgment is reasonable. I think we do have a 
real challenge if so many new Senators do not know the history 
here, do not know the background. Many sitting Senators do not 
know the history and the background, how these things have been 
used, how far away from those who wrote the legislation things 
have strayed, and what the consequences are and the 
implications for body, because, you know, as I read the 
history, our forefathers intended the Senate to be the cooling 
saucer. This was the place you could slow things down, think 
very carefully, have extended debate to be able to even change 
people's minds. Maybe that is a rarity around here, but I think 
it still happens. And that is the fundamental function in our 
structure of the U.S. Senate. And I tell you, reconciliation 
goes directly against that. Directly against that.
    So, again, thanks to the witnesses, thanks to the members, 
and we will continue to work together and see if we cannot make 
this process work better.
    The Committee stands adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
